2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

ODYSSEY CONTRACTING CORP.,
Petitioner,
v.
L&L PAINTING CO., INC.,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 24th day of March, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar
days. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
CHRIS GEORGOULIS
GEORGOULIS PLLC
Attorneys for Petitioner
120 Wall Street, Suite 1803
New York, New York 10005
T: 212-425-7854 F: 212-422-5360
Email: cg@georgoulis.com

Subscribed and sworn to before me this 24th day of March, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

Notary Public

Affiant

Counsel for Respondent
Allen J. Ross
Duane Morris LLP
1540 Broadway
New York, NY 10036-4086
P: +1 212 692 1021
F: +1 212 253 4309
C: +1 914 924 3500
ajross@duanemorris.com
www.duanemorris.com

